 

WAIVER

SUPREME COURT OF THE UNITED STATES

 

Supreme Court Case No, 21-5535
Timothy Marcus Mayberry y, indiana
Cetitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

CO There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature. Stpheg Ve. Geason Leog

pate Sorzabs 2? 202)

(Type or print) Name Stephen R.Creason
Oy OM QM. Miss

Firm Office of the Attorney General

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor

City & Statelidianapolis, IN ip 46204
Phone_317-232-6222

 

 

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Timothy Marcus Mayberry DOC #170022
Wabash Valley Correctional Facility P.O. Box 1111 Carlisle, IN 47838
Carlisle, IN 47838
